No. 20-8

3fn the Supreme £ourt of the @lniteb States
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,

Petitioners,
V.

ROBERT R. MCCORMICK FOUNDATION, ET AL.,

Respondents.

CERTIFICATE OF SERVICE
I, Joshua S. Bolian, a member of the Bar of this Court, hereby certify that on
this 31st day of March, 2021, all parties required to be served have been served
with the Supplemental Brief For Petitioners In Response To Brief For The United
States As Amicus Curiae. Per the Court's Order regarding filings, dated April 15,
2020, an electronic copy was served on the following:
Philip D. Anker
Alan E. Schoenfeld
Wilmer Cutler Pickering Hale and Dorr LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
philip.anker@wilmerhale.com
The above-listed counsel has agreed to accept electronic service on behalf of
the Defendants' Executive Committee and to distribute the electronic papers to that
Committee. Consistent with the November 21, 2013, Case Management Order from

the U.S. Court of Appeals for the Second Circuit (ECF No. 63, Case No. 13-3992 (2d
Cir., Nov. 21, 2013)), counsel for Respondents will provide copies of the Brief to
defendants that are respondents here, and will provide notice of this Brief on the
Tribune Defendants website, http://www.tribune-defendants.com.

Notice of the

Brief will also be filed on the district court docket in In re: Tribune Co. Fraudulent
Conveyance Litig., Case No. 11-MD-2296 (RJS) (S.D.N.Y.).

Joshua S. Bolian
Robbins, Russell, Englert,
Orseck, Untereiner & Sauber LLP
2000 K Street, N.W.
Washington, DC 20006
(202) 775-4500
Counsel for Petitioners

